            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


         SINGLE AUDIT OF THE
    COMMONWEALTH OF PUERTO RICO
      DEPARTMENT OF THE FAMILY
         FOR THE FISCAL YEAR
          ENDED JUNE 30, 2009

       JULY 2011   A-77-11-00013




  MANAGEMENT
ADVISORY REPORT
                                               Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d
in ve s tig a tio n s , we ins p ire p u b lic c o n fid e nc e in th e in te g rity a n d s e c u rity o f
S S A’s p ro g ra m s a n d o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d
a b u s e . We p ro vid e tim e ly, u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to
Ad m in is tra tio n o ffic ia ls , Co n g re s s a n d th e p u b lic .

                                              Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive
u n its , c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). The m is s ion o f th e OIG,
a s s p e lle d o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d
     p ro p o s e d le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s
     a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d
     o f p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e
     re vie ws .

                                                Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d ,
wa s te a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n
e n viro n m e n t th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e n c ou ra g in g
e m p lo ye e d e ve lo p m e n t a n d re te n tio n a n d fo s te rin g d ive rs ity a n d
in n o va tio n .
                                       SOCIAL SECURITY
MEMORANDUM

Date:      July 6, 2011                                                       Refer To:

To:        Frances Cord
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico
           Department of the Family for the Fiscal Year Ended June 30, 2009 (A-77-11-00013)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Puerto Rico Department of the Family for the Fiscal
           Year (FY) ended June 30, 2009. Our objective was to report internal control
           weaknesses, noncompliance issues, and unallowable costs identified in the single audit
           to SSA for resolution action.

           Aquino, DeCordova, Alfaro & Co., LLP performed the audit. The results of the desk
           review conducted by the United States Department of Agriculture (USDA) concluded
           that the audit generally met Federal requirements. In reporting the results of the single
           audit, we relied entirely on the internal control and compliance work performed by
           Aquino, DeCordova, Alfaro & Co., LLP and the reviews performed by USDA. We
           conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Puerto Rico Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI program in accordance with Federal regulations. The
           DDS is reimbursed for 100 percent of allowable costs. The Puerto Rico Department of
           the Family (PRDF) is the DDS’ parent agency.

           The single audit reported PRDF did not have adequate documentation to support
           payroll costs claimed for Federal reimbursement as required by OMB Circular A-87
           (Attachment A, Pages 1 and 2). The corrective action plan indicated a strategy for
Page 2 – Frances Cord
compliance with OMB Circular A-87 is in process. 1 We recommend SSA ensure the
Puerto Rico DDS maintains documentation to support payroll costs charged to SSA.

In addition, the single audit reported PRDF submitted expenditures and obligations to
SSA on the State Agency Report of Obligations for Social Security Administration
Disability Programs (Form SSA-4513) that did not agree with the amounts recorded in
PRDF’s accounting records for FYs 2007, 2008, and 2009 (Attachment A, Pages 3 and
4). The corrective action plan indicated current procedures result in differences
between the amounts reported on the Form SSA-4513 and the accounting records. We
recommended corrective action to SSA on this finding in a recent report. 2 Therefore,
we will not repeat the recommendation in this report.

Further, the single audit reported PRDF:

•   Had deficient accounting policies, procedures, and financial reporting practices
    including a lack of a self-balancing set of accounts, inappropriate and/or incomplete
    monthly and year-end closing procedures, and inappropriate and/or incomplete
    budgeting control between award distributions and Federal program activities
    (Attachment A, Pages 5 through 7).

•   Did not have adequate procedures and controls over the timing of cash draws for
    SSA’s disability program and therefore, did not comply with OMB Circular A-102
    (Attachment A, Pages 8 through 13).

We made recommendations to SSA in prior reports for corrective action on these two
findings. 3 We confirmed that SSA took appropriate corrective actions to address these
findings. Therefore, we will not repeat the recommendations in this report.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                                  Patrick P. O’Carroll, Jr.
Attachments

1
  The corrective action plans contained in the Single Audit of the Commonwealth of Puerto Rico,
Department of the Family, for the Fiscal Year Ended June 30, 2009, were of very low print quality.
Therefore, the corrective action plans are not included in this report. By request, the Office of the
Inspector General will provide a copy of the single audit report to SSA.
2
 Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2008 (A-77-11-00012), May 2011.
3
 Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2006 (A-77-09-00011), issued August 5, 2009 and
Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico, Department of the
Family, for the Fiscal Year Ended June 30, 2007 (A-77-09-00012), issued August 20, 2009.
Attachment A
Page 1 of 13
Attachment A
Page 2 of 13
Attachment A
Page 3 of 13
Attachment A
Page 4 of 13
Attachment A
Page 5 of 13
Attachment A
Page 6 of 13
Attachment A
Page 7 of 13
Attachment A
Page 8 of 13
Attachment A
Page 9 of 13
Attachment A
Page 10 of 13
Attachment A
Page 11 of 13
Attachment A
Page 12 of 13
Attachment A
Page 13 of 13
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
